<html>
<title> - BROKEN BEAKERS: FEDERAL SUPPORT FOR RESEARCH</title>
<body><pre>[Senate Hearing 115-203]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-203
 
              BROKEN BEAKERS: FEDERAL SUPPORT FOR RESEARCH

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2017

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            




                        
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-445 PDF               WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk


  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, Montana                 KAMALA D. HARRIS, California
                      Greg McNeill, Staff Director
                Zachary Schram, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                      
                      
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Paul.................................................     1
    Senator Peters...............................................     3
    Senator Harris...............................................    14
    Senator Lankford.............................................    15
    Senator Hassan...............................................    17
Prepared statement:
    Senator Paul.................................................    21
    Senator Peters...............................................    23

                               WITNESSES
                      Wednesday, October 18, 2017

Brian A. Nosek, Ph.D., Executive Director, Center for Open 
  Science and Professor, Department of Psychology, University of 
  Virginia.......................................................     5
Terence Kealey, M.D., Ph.D., Senior Visiting Research Fellow, 
  Cato Institute.................................................     7
Rebecca Cunningham, M.D., Associate Vice President for Research, 
  Health Sciences, University of Michigan, Office of Research....     9

                     Alphabetical List of Witnesses

Cunningham, Rebecca M.D.:
    Testimony....................................................     9
    Prepared statement...........................................    37
Kealey, Terence, M.D., Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    30
Nosek, Brian A. Ph.D.:
    Testimony....................................................     5
    Prepared statement...........................................    25

                                APPENDIX

Water Research Foundation prepared statement submitted for the 
  Record.........................................................    45
Responses to post-hearing questions for the Record from:
    Dr. Nosek....................................................    48
    Dr. Cunningham...............................................    51


              BROKEN BEAKERS: FEDERAL SUPPORT FOR RESEARCH

                              ----------                              


                      WEDNESDAY, OCTOBER 18, 2017

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:20 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Lankford, Peters, Hassan, and 
Harris.

              OPENING STATEMENT OF SENATOR PAUL\1\

    Senator Paul. The hearing will come to order, and I want to 
thank everybody for getting here sort of in a rush. We are 
going to have to go vote a little after 3:00 p.m., but we 
wanted to get as much done as possible because I think there 
are six votes and there may not be a resumption of the hearing. 
So we are going to be efficient and get to it and have a good 
discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 21.
---------------------------------------------------------------------------
    Today we are going to look at the Federal Government's role 
in funding research. I am concerned that the government system 
of supporting research is inefficient and often incentivizes 
the wrong things, which leads to bad science and wasted 
taxpayer dollars.
    We have published examples, like this National Science 
Foundation (NSF) study, which had money being spent on Ugandan 
gambling habits. I just see no reason at all taxpayer money 
would go to that, period. And we do it year after year after 
year.
    Senator Lankford found an National Institutes of Health 
(NIH) study, $2 million, investigating if kids do not like food 
that has been sneezed on. Are you more or less likely to eat 
the food in front of you in the buffet line if someone sneezes 
on it? That is absurd.
    And who could forget the shrimp on a treadmill found by 
Senator Coburn?
    So how does this happen? More accurately, how does this 
continue to happen? I remember as a kid in the 1970s seeing 
Senator William Proxmire describe waste such as this as he gave 
his Golden Fleece Awards, and here we are 40 years later still 
with the same kind of questions.
    Part of the problem is the old adage, ``Publish or 
perish.'' Researchers that publish are more likely to get 
Federal funding, and unique research is more publishable. So 
how do unique projects get funded to begin with? At some 
agencies, grant applicants themselves can actually recommend 
who should review and make the recommendations on their grant. 
So the people getting the money can recommend who approves 
giving them the money. That is right. Researchers get to pick 
the people who approve their funding. It does not sound very 
objective.
    Some grantsmanship books advise applicants to recommend 
reviewers who will be champions for your work, while agency 
guidelines suggest disqualifying those who have scientific 
disagreement with you. So we teach people how to get grants, 
and we say, ``Find people who agree with you and get them on 
the committee. If you know anyone already disagrees with you, 
make sure you keep them off the committee.''
    This is baking in bias, and it is unacceptable. I have 
introduced legislation that will prohibit this practice and 
further require impartiality on grant review panels.
    Another problem we found is downstream funding or taking 
original grant money and giving it to other researchers for 
projects that are often not consistent with the original grant. 
The Federal Government gives someone money to do research. That 
person then gives it to someone else, who even may give it to a 
third or a fourth party. None of this is published in public 
government databases.
    One example of this problem was a study that its intent was 
what makes for the perfect first date. But this is the subject 
of the study: ``What makes for a perfect first date?'' The 
original grant, to study how scientists collaborate on 
scientific research. They were going to study collaboration on 
scientific research. They somehow got to what makes for a 
perfect first date.
    It is difficult to discover how much these studies cost 
because they are cobbled together from multiple sub-grants. My 
bill would curtail this by requiring that all sub-grants, no 
matter how removed from the original grant, be fully reported, 
approved, and made public.
    We also found that many grants are issued for rational but 
broad research subjects and then are used for ridiculous 
ancillary projects. For example, one researcher took money from 
NIH to study drug and alcohol abuse and then published a paper 
on how to select the best wines for your palate. I am not sure 
how this prevents alcoholism, but I am pretty sure it must have 
been interesting to the journal editors.
    Our bill creates a special Inspector General (IG) to 
oversee this and make sure that we are spending our money 
wisely. Why should we do this? Well, we spend $700 billion more 
than we take in every year, and we have a $20 trillion debt. It 
is inexcusable just to keep shoveling good money after bad 
without paying attention to how we spend it.
    In our bill we also ask for something called a ``taxpayer 
advocate for research'' that can look into these matters, 
provide rigorous oversight, and report to Congress about such 
follies.
    Our bill also requires that committees reviewing grants 
have at least one researcher from a scientific field unrelated 
to the subject area to further remove personal bias. The idea 
is to have a scientist from important areas of research, such 
as cancer, diabetes, Alzheimer's, heart disease, sit in on 
review committees that would review grants for wine tasting. 
Maybe someone would say, ``You know what? We really have a lot 
of people with Alzheimer's,'' or, ``We really have a lot of 
people with heart disease.'' Maybe someone would say, ``Maybe 
the shrimp on a treadmill is not something we have to study.'' 
Or maybe the money could be better spent somewhere else.
    The last problem I will discuss is replicability. An 
increasing body of work shows that, in an effort to publish, a 
lot of research is not reproducible. This means that the study 
cannot be duplicated by other scientists to produce 
statistically similar results. That is a major problem, and it 
goes back to this issue of publishing. Journal readers and 
editors do not get excited about negative results, so the bias 
is toward funding studies that prove a premise versus studies 
that may disprove a premise.
    My bill would seek to address this by creating greater 
transparency to the whole process so taxpayers can know exactly 
how their money is being used. This will allow the scientific 
community and the public at large to be able to collectively 
review and evaluate taxpayer-funded research. Hopefully, this 
will deter study manipulation to prove hypotheses.
    Some will say that the general public does not understand 
science, but I do not think you need a Ph.D. to understand 
people are less likely to choose food that has been sneezed on, 
and they do not want that kind of research either.
    With that, I would like to recognize our Ranking Member, 
Senator Peters, for his opening statement.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Well, thank you, Chairman Paul, for holding 
this hearing today. I would like to join Chairman Paul in 
thanking our witnesses for taking the time to be with us here 
today. I look forward to hearing your testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 23.
---------------------------------------------------------------------------
    One of the essential tasks of this Subcommittee is to 
engage in honest evaluations of the public investments that we 
make as a Nation and whether or not these investments are 
indeed worthwhile. This is a responsibility to the taxpayer 
that I personally take very seriously, and I am grateful to 
have an opportunity to do so in a collaborative, bipartisan 
way.
    We are here today to discuss Federal funding for scientific 
research, which I believe remains a necessary investment in our 
collective future. Scientific research is the seed corn of 
innovation and new discoveries, and Federal investments in 
research and development (R&D) have led to discoveries that 
have had profound impacts on public health, safety, and our 
quality of life. Federally funded research has resulted in 
widespread adoption of technologies as revolutionary as the 
Internet, global posititioning system (GPS) satellites, 
magnetic resonance imaging (MRI), and the Human Genome Project 
(HGP). This research results in economic growth in every State 
and leads to the creation of tens of thousands of jobs in 
entirely new sectors of the economy. It inspires the next 
generation of Americans to believe that the sky is the limit 
and that no challenge is impossible.
    Even as the share of Federal investment remains at a 
historic low as a percentage of overall gross domestic product 
(GDP), supporting federally funded research remains as 
important as ever to maintain America's competitive edge in an 
increasingly competitive global economy.
    Targeted Federal investments in research can accelerate, 
catalyze, and encourage private sector innovation that may not 
have otherwise occurred.
    We should recognize that the Federal and private 
contributions to the research and development enterprise are 
not perfect substitutes for one another, but instead work in 
tandem with each other, focusing on different stages in the R&D 
cycle.
    Last year, I was proud to introduce bipartisan legislation 
with Senators Gardner, Thune, and Nelson known as the 
``American Innovation and Competitiveness Act,'' which was 
signed into law in January of this year. The bill was the 
product of a year-long effort that began with a series of 
roundtable discussions with representatives from science, from 
education, business, and economic development communities on 
how to improve the American research and innovation ecosystem.
    Our legislation reauthorized a number of important programs 
that promote research and scientific inquiry, strengthen 
innovation and advance manufacturing, grow our skilled 
workforce, and enhance American competitiveness around the 
world.
    The bill included a number of provisions that aim to reduce 
regulatory and administrative burdens on academic researchers 
so that they can spend more of their time on research and less 
on paperwork.
    Our bill also reaffirmed the independent merit review 
process that guides NSF funding decisions and ensures that 
research proposals are judged independently on their merits by 
peers in the scientific community and without bias.
    While certain basic research projects that receive Federal 
funding certainly have some very silly sounding titles, further 
examination may reveal the true scientific merit and potential 
broader impacts of that work.
    Before a proposal gets one penny of funding, reviewers have 
to consider it based on criteria that include whether the 
proposal increases economic competitiveness, advances public 
health and welfare, or supports the national defense. It is 
worth noting that only one in five proposals receive NSF 
funding at all and that NSF is required to justify to the 
public why these proposals were lucky enough to receive 
funding.
    Even as research begins with a clear question in mind, it 
can be hard to quantify or predict exactly where the science 
will lead. Rather than inject politics into this process, our 
discussion today should instead concentrate on how to safeguard 
the often unexpected process of discovery inherent in 
scientific inquiry while ensuring that Federal dollars spent on 
research remain completely and fully accountable to taxpayers.
    Part of the solution may lie in breaking down barriers. 
Rather than remain ensconced in the ivory tower of academia, 
scientists should be prepared to engage in a robust exchange of 
information with the general public about the goals and 
benefits of their research.
    The discussion we are having today is an important one. Our 
country faces critical environmental, public health, and 
economic challenges in the years ahead, but we must not shy 
away from facing head on by leveraging the power of our 
research enterprise to create a better tomorrow for each and 
everyone.
    Thank you again to our witnesses for your time today. I 
look forward to the discussion.
    Senator Paul. Thank you, Senator Peters.
    With that, I will begin by introducing our first witness, 
Brian Nosek. Dr. Nosek is the co-founder and executive director 
of the Center for Open Science at the University of Virginia, 
which works to increase the openness, integrity, and 
reproducibility of scholarly research. Dr. Nosek holds a Ph.D. 
from Yale and is professor of psychology at the University of 
Virginia.
    We are happy to have you here and to get your thoughts on 
these critical issues. Dr. Nosek.

  TESTIMONY OF BRIAN A. NOSEK, PH.D.,\1\ EXECUTIVE DIRECTOR, 
     CENTER FOR OPEN SCIENCE, AND PROFESSOR, DEPARTMENT OF 
               PSYCHOLOGY, UNIVERSITY OF VIRGINIA

    Mr. Nosek. Chairman Paul, Ranking Member Peters, Members of 
the Subcommittee, on behalf of myself and the Center for Open 
Science, thank you for the opportunity to discuss the funding 
of scientific research and the role of transparency and 
reproducibility to maximize the return on those investments.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Nosek appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    Science may be humanity's most important long-term 
investment. The effort to accumulate knowledge has profound 
consequences for growing the economy, security, and well-being 
of American society. Some of the impact of scientific 
investments are directly anticipated in the project aims. But 
much of the impact is indirect. Research often leads to 
unexpected insights and applications that are only appreciated 
after the discovery, and these unexpected directions can 
produce returns that are many orders of magnitude larger than 
the original investment.
    Simultaneously, there are opportunities to nudge the 
culture of incentives in science to be even better stewards of 
taxpayer support.
    In 2002, I became a professor at the University of Virginia 
in the Department of Psychology. My group does fundamental 
research on implicit social cognition--thoughts and feelings 
that occur outside of conscious awareness or conscious 
control--and my lab has had Federal support from NIH and NSF.
    Since 2013, I have been on extended leave from the 
university because a graduate student and I spun out a 
technology and culture change company from my lab called ``The 
Center for Open Science.'' The center has a mission to increase 
openness, integrity, and reproducibility of research and has 
received support from NIH, NSF, Defense Advanced Research 
Projects Agency (DARPA), and Intelligence Advanced Research 
Projects Activity (IARPA).
    Transparency and reproducibility are core values of science 
because they are how science advances knowledge. When I make a 
claim, you could believe it based my authority as an expert or 
how confident I seem making it. But these are not sufficient 
for scientific claims. For credibility of scientific claims, I 
need to show you how I arrived at the claim. By showing you my 
methodology, the data I collected, and how I analyzed and 
interpreted that data, you can make an independent assessment. 
You might recognize a flaw, think of an alternative 
interpretation, or have an idea about how to extend what I did 
to learn more. Moreover, by sharing how I arrived at that 
claim, I give you the opportunity to reproduce the evidence. If 
you can independently obtain similar results, then our 
confidence in the claim increases. The challenge, and the 
reason for the Center for Open Science's existence, is that the 
culture of incentives for scientists sometimes undercuts the 
core values of transparency and reproducibility.
    The culture rewards novel, positive, clean results, and 
there are few incentives for being open or reproducible. As a 
consequence, we may be producing exciting results at the cost 
of credibility of those results. And some evidence suggests 
that the reproducibility of the published literature is lower 
than desirable or expected. Federal research funding agencies 
are aware of this problem and only have taken initial steps to 
address it. This can change. If transparency and 
reproducibility are incorporated into the policies and 
incentives shaping researchers' behavior, we may reduce waste 
and increase the pace and efficiency of discovery and 
ultimately earn even greater returns on investment of taxpayer 
dollars.
    I will close with a specific suggestion that the Committee 
could pursue to help further the efficiency in scientific 
research, and that is to set the default to open for papers, 
data, and materials. In 2013, Federal agencies were asked by 
the White House to make a plan for improving the management and 
accessibility of data and materials for the research that they 
fund. Most agencies have completed this work. Congress could 
take the next logical step and require each Federal research 
funding agency to develop policies that require the research 
data and materials generated by Federal dollars to be made 
publicly accessible by default upon the publication of the 
findings or completion of the grant period. Changing the 
default from closed to open would alter cultural expectations 
and behavior. Instead of needing to generate reasons to share 
data, researchers would need to provide justification for delay 
or to not share at all due to proprietary or privacy concerns.
    Public investment in science leads to solutions, cures, and 
entirely unexpected advancements that benefit American society. 
Changing the default to open for scientific research data would 
transform science, dramatically increase the return on 
investment (ROI) from publicly funded research, and accelerate 
progress. This is not a difficult proposition and concept, but 
it does require a mandate. This one action would dramatically 
increase the public benefit from our investments in science.
    Thank you, Members of the Committee, for your continuing 
support of science and for the opportunity to speak with you 
today.
    Senator Paul. Thank you, Dr. Nosek.
    Our next witness is Terence Kealey. He is a senior research 
fellow at the Cato Institute. Prior to joining Cato in 2014, he 
served as president of the University of Buckingham, the only 
university in Britain to be financially independent from the 
government. He has also lectured in clinical biochemistry at 
the University of Cambridge and is the author of ``The Economic 
Laws of Scientific Research.'' Dr. Kealey holds an M.D. from 
the University of London and a Ph.D. in metabolic chemistry 
from Oxford. During his laboratory career, he focused on the 
study of inflammatory skin conditions.
    Thank you for being here, and we look forward to your 
opening statement.

 TESTIMONY OF TERENCE KEALEY, M.D., PH.D.,\1\ SENIOR VISITING 
                RESEARCH FELLOW, CATO INSTITUTE

    Dr. Kealey. Thank you very much for having invited me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Kealey appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    I am very glad to be speaking after Dr. Nosek because in a 
sense my five minutes is about addressing how we got to a 
situation where Brian Nosek's research became so important.
    In my testimony I provide the evidence and, with great 
respect to Senator Peters, I have to say that there is, I am 
afraid, simply no evidence that economic growth or 
technological growth that leads into economic growth is in any 
way benefited by the Federal funding of science. It is widely 
believed that government should fund science. It is based on a 
model of what science is that I regret is unscientific, and in 
my testimony I hope I have shown pretty clearly that the 
government in this country and no other government needs fund 
science, at least for economic reasons.
    Nonetheless, I am going to take the testimony as read. I am 
not going to revisit it. I am just going to accept that that is 
what governments do. They fund science. And what they do in 
consequence is they impose a particular model on science, which 
is called ``the linear model,'' which actually has a history of 
400 years. It was first described by Francis Bacon 400 years 
ago in England. And the model says, very much as Senator Peters 
suggested and very much as Dr. Nosek suggested, that what you 
need is you need a group of scientists doing pure research in 
universities and similar research institutions where they are 
free to follow their own curiosity and to follow where the 
science takes them. And then as a consequence of that, 
knowledge leaks out to the rest of the world and is then turned 
into technological and other forms of sociological advance.
    That is not how science happens in the free market. In the 
market, scientists who are embedded within companies and 
industry are embedded very tightly with technologists, with 
other members of the company, even with marketing. They are 
part of a commercial enterprise. The result, therefore, is that 
there are two ways of judging scientists, and in industry, 
scientists are ultimately judged by their technology. How does 
a scientist's research ultimately lead to technology that is of 
benefit, of course, immediately to the company and to the 
stockholders but to society at large that way?
    As Daniel Sarewitz of the University of Arizona said in a 
very influential essay last year, it is technology that keeps 
science honest. But the government funding of science makes 
scientists answerable not to technology, not to stockholders, 
but to fellow scientists. And that leads directly to the two 
problems that Senator Paul indicated.
    First, the problem with peer review is that you end up with 
a group of people all agreeing with each other on which 
particular paradigm they wish to support, and often 
unconsciously--scientists are profoundly honest people, but, 
nonetheless, they have their own interests, and unconsciously 
supporting paradigms that, if they were tested against the 
technological market, would never have survived for nearly as 
long as they do survive in the academic world. Such an example 
might be the 40-year history of governments telling us not to 
eat fat, which was based on a group of scientists telling 
another group of scientists that they should not eat fat and 
all agreeing with each other. It was, of course, wrong.
    But the other problem, again, as Dr. Nosek and Senator Paul 
indicated, is that scientists are not judged by what they 
achieve. They are judged by the numbers of papers they publish, 
at least in part, and they are judged by which journals they 
are published in. So to be savage about this, scientists are 
not judged by what they achieve; they are judged by what they 
write. The consequence of that is that scientists are 
encouraged to do the sort of things that Brian Nosek has picked 
up, such as produce papers that are not easily reproduced. The 
reason they produce such papers is the benchmark for success is 
having the paper accepted, not making an important advance for 
humanity.
    So, to conclude, this country has engaged since 1950, when 
the NSF was created, in an interesting experiment of the 
Federal Government funding science. It has had no impact on 
fundamental rates of economic growth. What it has done, it has 
created a micro-climate or a niche where scientific pathologies 
have proliferated, and the answer actually is to question anew 
whether government should be funding science at all.
    Thank you.
    Senator Peters. Well, I have the great pleasure to 
introduce a fellow Michigander, Dr. Rebecca Cunningham, who is 
representing not only the State of Michigan but a great 
American university, the University of Michigan. Of course, we 
are blessed with a number of great universities in our State, 
but it is great to have Dr. Cunningham here. She is the 
Associate Vice President for Health Sciences Research for the 
University, Professor for the University of Michigan's 
Department of Emergency Medicine, and a Professor in Health 
Behavior and Health Education at the University of Michigan 
School of Public Health.
    Dr. Cunningham has a very distinguished career in 
conducting clinical trials focused on public health 
interventions in health settings, such as the emergency 
department. Her past clinical trials have focused on 
interventions in the emergency room using technology to 
overcome barriers to reaching youth, to prevent alcohol and 
prescription opioid misuse. This is a matter, of course, of 
great interest to this Committee, and I applaud all of your 
efforts in that area.
    Her federally funded research over the last 18 years has 
focused on improving the health of children and young adults 
and those seeking emergency health services. Also, notably, Dr. 
Cunningham started her career as an attending physician at 
Hurley Hospital in Flint, Michigan.
    Thank you, Dr. Cunningham, for your service, and thank you 
for testifying here today and representing us all very well.

   TESTIMONY OF REBECCA CUNNINGHAM, M.D.,\1\ ASSOCIATE VICE 
PRESIDENT FOR RESEARCH--HEALTH SCIENCES, UNIVERSITY OF MICHIGAN 
                       OFFICE OF RESEARCH

    Dr. Cunningham. Thank you for that introduction. Good 
afternoon, Chairman Paul, Ranking Member Peters, and Members of 
the Subcommittee. Thank you for inviting me to speak with you 
today about the value of federally funded research. I also want 
to give special thanks to Ranking Member Peters for his work on 
crafting and securing passage of the American Innovation and 
Competitiveness Act which serves to support the critical 
Federal research enterprise that I am here to talk with you 
about today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Cunningham appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    Our great Nation is what it is today because of Federal 
investments in research. We are leaders in innovation because 
of these investments, our economy is strong because of these 
investments, and our top research institutions are the envy of 
the world because of these investments.
    This investment has supported--and must continue to 
support--basic, curiosity-driven research alongside applied 
research and engineering. The knowledge that we derive from 
fundamental research is the seed to innovations like self-
driving cars and life-saving drugs. Another example is the 
iPad; without Federal research investments to deepen our 
understanding of basic scientific principles across many 
agencies, engineers never would have been able to design the 
core software and components that made the iPad such a ground-
breaking device. This is just one example of the possibilities 
that come out of fundamental research: innovations that our 
imaginations cannot always comprehend.
    I have seen the benefits of these innovations firsthand. As 
an emergency physician, I have seen the success of drugs and 
new medical technologies that allow patients to walk out of the 
hospital today who would have died when I was a medical 
student. I have sat with the spouses, parents, and children of 
those who have fallen victim to the epidemic of opioid overdose 
in our Nation. Over the past 20 years, funded by the NIH and 
the Centers for Disease Control (CDC), I and our research team 
and lab have worked to develop interventions for the treatment 
of children impacted by substance abuse or trauma who flood our 
emergency rooms, and such research has prevented many more from 
needing our care.
    For example, I am partnering with scientists and community 
leaders to address the opioid epidemic that is impacting every 
community across our Nation. Translating the underlying science 
of opioids into policy solutions relies on fundamental 
research. From synthetic chemistry funded by the NSF to basic 
neuroscience funded by the NIH, policies based on sound 
fundamental science and life-saving medical breakthroughs will 
ultimately lead to the solutions that we cannot yet imagine but 
need for the opioid crisis.
    Federal support for research has been part of our country's 
fabric dating back to the start of the Republic in the 1700s. 
In the past 70 years alone, the role of funding in game-
changing innovations has been tremendous. For example, the 
development of the GPS, supercomputing, the visible light-
emitting diode (LED), the technology behind the MRI machine 
that aids many of my patients in diagnosis of brain disease 
daily, all have their roots in Federal investments in public 
sector researchers.
    Federal investments in research also help drive our economy 
and train our future Science, Technology, Engineering and Math 
(STEM) workforce. At the University of Michigan, there were 444 
new inventions last year and 12 startup companies launched 
based on technologies developed by our researchers. Federally 
funded research supports local economies all across the Nation 
by providing billions of dollars each year to vendors--from 
small businesses to biotech companies--who are making devices, 
software, and other equipment needed to perform research.
    In the past 15 years, vendor spending to support research 
at the University of Michigan has created 221,000 manufacturing 
jobs and 641,000 health care jobs. This investment also 
supports thousands of employees working in laboratories and 
research institutions across the country, many of whom the 
largest recipients by far are our students. It is this next 
generation of students that will drive and support American 
innovation and competitiveness in the future and lead many of 
the industries that will take us to success.
    Flat funding rates in Federal investments in research--and 
in many cases declining funding rates--over the last decade 
have already shown impacts on our scientific talent pipeline, 
driving away the next generation of leaders and innovators from 
careers in research. This decline is happening while other 
countries see the clear return on investment in government-
sponsored research and are doubling down on their efforts to 
become global leaders. Indeed, several metrics related to 
innovation and scientific impact already show that the United 
States is losing ground to countries like China.
    This trend will only continue at our current level of 
research investment, and the consequences will impact the 
American economy as well as our national security. For the 
United States to remain a global leader, we need to lead in 
innovation, science, and research. American industry leaders 
recognize that the Federal Government's investment in basic 
science is critical in driving innovation, productivity, and 
economic growth. For example, hundreds of business leaders 
signed the Innovation Imperative statement, which was a call to 
action for Federal funding increases in basic scientific 
research.
    Thank you again for this opportunity to discuss the 
importance of Federal investments in research. I would be happy 
to answer any questions.
    Senator Paul. Thank you all for your testimony.
    I was intrigued, Dr. Kealey, by your sort of compare and 
contrast of the way industry works versus how we judge science 
in universities. Tell me again, what was the name of the author 
of the paper you said that talked about technology keeps 
scientists honest?
    Dr. Kealey. Daniel Sarewitz, in a journal called ``New 
Atlantis.'' It is a very good article.
    Senator Paul. OK. I was intrigued by the contrast between 
how technology keeps scientists honest because it basically has 
to work, and the stuff that works in rewarding the stuff that 
does not work, may sit around. But it is kind of interesting 
because people on the left will say, well, we will never get 
any basic science research, serendipity and all of these things 
where people put some mold in a dish and discover penicillin 
are never going to happen if it is just industry. But I was 
thinking of, even in my State, we have Corning, who has been 
famous for developing practical uses of science. They developed 
something back in the 1960s--they call it now ``Gorilla 
Glass,'' but it was a technology for making this glass. They 
did not have a use for it for 50 years. But they kept it in 
their files. They patented it. And now it is the glass on your 
cell phone. And it is an amazing thing. I think it drives their 
whole industry. It drives their whole company now, what they 
make, the money they make off of this. So I think serendipity 
and things can come from industry as well.
    But in contrasting that with the university where the 
reward is not whether your science is necessarily good or 
produces anything of value to society or economic growth, but 
whether or not it is published, how many times it is published, 
and in what journals.
    I guess my question to you, though, would be: In looking at 
this contrast, what do you think of the other side's argument 
that says, well, we will not get basic science research, we 
will not get serendipity, we will not get all these clever 
little things that just happen to turn up from being curious if 
we had science led by technology and industry?
    Dr. Kealey. Well, it is a myth that industry does not 
support basic science. Industry is very generous toward basic 
science. Because, of course, industry needs basic science. But 
the real lesson is historical. Despite Dr. Cunningham's 
statement that the Federal Government has supported science 
throughout the history of the Republic, actually as recently as 
1940 the Federal Government was funding only about 20 percent 
of American science or R&D. You became the richest country in 
the world in 1890 under a regime of complete laissez-faire, and 
you have only got to look at some of the Senate records of the 
Senate opposition even to taking the money for the Smithsonian 
Institution, which was opposed by a number of Senators, to 
realize how long the suspicion has been of American funding of 
science by the Federal Government.
    The NSF was created as part of the Truman Doctrine. It was 
Truman deciding that he was going to forget George Washington's 
statement of no foreign entanglements. America was now going to 
get involved with foreign entanglements, which meant he needed 
defense research to support his defense initiatives.
    All that happened as a consequence of that was crowding 
out. What people forget is the phenomenon of crowding out. When 
the State funds something, the private sector withdraws. Dr. 
Cunningham points out that companies like private--the 
government funding science. Of course they do. Companies are 
very fond of corporate welfare. Crowding out in the phenomenon 
that explains why there is no evidence anywhere that the 
government funding of science has ever stimulated economic 
growth or, indeed, the amount of pure science. Industry cannot 
survive without pure science, and it funds it very generously.
    Senator Paul. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Dr. Cunningham, I would like you to expound a little bit on 
some of the points that you made. First I want to say that we 
know the scientific enterprise and the ability to advance 
scientific knowledge is a complex ecosystem, and it is not 
mutually exclusive. It is not just private industry. It is not 
just in academia. It is about the interaction between all of 
these entities working together and churning the innovation 
that comes out of the scientific enterprise. So in my mind, 
there is a role for Federal research. Certainly private 
industry is a big part of it. In fact, most investment in 
research is done with private industry today.
    But I would like you to speak a little bit just from your 
own experience. Can you provide an example of research that you 
have done over the many years that you believe just simply 
would not have been done if it was not for Federal investment?
    Dr. Cunningham. Sure. Thank you. A lot of the work that we 
have done has been on looking at ways that we can get 
adolescents and teenagers who are at risk for substance use and 
opioid misuse to make safer decisions and to be safer after 
leaving the emergency department. That is not the type of 
research that typically would be of interest to industry, would 
have an immediate economic gain to industry. It is of 
tremendous help and benefit to the greater public health, and 
that type of prevention work is critical to our public safety, 
public health, and eventually hopefully to the opioid epidemic 
that we face.
    Senator Peters. So it is not something you would see 
pharmaceutical companies doing?
    Dr. Cunningham. That type of prevention work is not done by 
pharmaceutical companies.
    Senator Peters. I also know that the University of 
Michigan, just from my own personal experience, is an 
incredible engine of economic growth in our State. I think it 
is in no small part because of the tremendous research that is 
being done at the University of Michigan as well as our other 
research universities that have created intellectual hubs that 
spread out throughout the economy, throughout the business 
sector.
    Considering your role in the Office of Research, could you 
provide some examples of basic research at the University of 
Michigan that you believe has led to significant economic 
growth?
    Dr. Cunningham. Yes, thank you. The University of Michigan 
is a tremendous--there is tremendous spillover throughout the 
State. First of all, I can say, as I mentioned, the 444 new 
inventions last year and the 12 new startup companies in 
technologies based on our researchers. A new startup happens 
about every four weeks out of the university research alone. 
Recently, a company, Neurable, was created by University of 
Michigan scientists who were studying foundational questions 
around brain waves. They have then gone on to develop a cap 
that can help you think about making things move just by 
wearing the cap. That will likely go on to have great economic 
benefits down the road. That is really in its early stages 
right now, but came from foundational research and foundational 
science.
    I think also the spillover effect in terms of training 
cannot be overlooked. For example, a researcher that did 
foundational work on semiconductors that went on to being part 
of Samsung screens came out of the University of Michigan, has 
had big implications for cheaper and more efficient solar 
cells, which have impacted our economy, also influenced 
national security. And really importantly to think about is 
while that researcher was doing that federally funded research, 
they also trained 27 post-docs and 52 Ph.D. students, many of 
whom went on to be faculty and leaders and eventually leaders 
of companies and leaders of industry. They were trained with 
this foundational research. That type of spillover effect is 
really critical.
    Also, when we talk about benefits to the economy, it is 
important to think about that type of linear model has been 
rethought more recently by many scholars in terms of an 
innovation ecosystem. Really, we do not see it anymore as a 
linear model of pure science happening at the institutional 
level that eventually trickles down in a linear way to industry 
and to the economy. Instead, we really see much more of what we 
call ``tire track model'' where there is a lot of interaction 
back and forth even at early levels between basic scientists 
and industry and basic scientists and the public sector. Those 
inform each other, and they train each other. In the end we 
wind up with an innovation ecosystem that is a lot stronger.
    I think the university as well as other academics have also 
come to see that we can do better in moving this pipeline 
faster down the road, and some federally funded programs have 
helped that. For example, the University of Michigan has what 
is called the Clinical and Translational Science Awards (CSTSA) 
program, which is designed specifically to take early stage 
work and help investigators move it quicker down a pipeline by 
connecting basic scientists who often cannot speak outside of 
their field because they are very much experts in a particular 
field with folks who have applied and practiced in industry 
work, to be able to have that interaction happen faster and 
really be synergistic.
    Senator Peters. Partially in response to criticism from 
Members of Congress about silly sounding research grants--we 
heard some examples of those here earlier today--the NSF issued 
guidance in 2013 to researchers on how to write titles and 
abstracts in a way that enhances public understanding of 
scientific research. It encourages researchers to explain the 
significance of their projects in a non-technical manner. This 
change may seem insignificant, but I think it really 
underscores the importance of building connections between the 
scientific community and the general public, while certainly 
reminding Americans that scientific innovation and research 
benefits the whole country in many ways.
    I am curious about the panel's thoughts on what scientists 
can do to better communicate the importance of their research 
to the public and to dispel some of these misconceptions about 
silly sounding research. I will start with you, Dr. Cunningham, 
and then I think we will only have time for Dr. Nosek. If you 
would follow up, I would appreciate it. Dr. Cunningham.
    Dr. Cunningham. I think we all have a responsibility to 
communicate our science better. I think although silly sounding 
science to non-scientists may be difficult to understand the 
ultimate meaning behind, we are responsible for communicating 
better. There are a number of ways that that can happen. Our 
CDC center that I currently direct takes each of our science 
publications that comes out and works with communications 
staff, specifically pairing scientists with non-scientists in 
that realm to help create one-page sheets that can be easily 
understood for the public on exactly what it is we are doing 
and how that might inform our public practice and health. I 
think that is one manner.
    There are a number of other programs that are like that at 
the American Association for the Advancement of Science, the 
Center for Public Engagement in Technology, a Science Policy 
Fellows Program that is working to engage scientists in 
communicating that information better to the public.
    Senator Paul. Thank you.
    We are going to go to Senator Harris, and I apologize, but 
we are going to do five minutes so we can try to get through 
everybody, because we are getting ready to have to go vote. 
Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman.
    I will tell you, this issue is very personal to me. My 
mother was a scientist, an endocrinologist. She advised NIH. 
She did her research at a number of places, but most recently 
before passing, at UC-Berkeley she maintained a lab for years. 
In fact, my first job was cleaning pipettes in my mother's lab. 
I was awful. She fired me. But there you go.
    Being from California, we take a certain level of pride, 
perhaps--and please forgive any bravado--but Google's search 
engine, its foundational tool, came from federally funded 
research at Stanford; the nicotine patch that has helped 
millions of people quit smoking came from federally funded 
research at UCLA; augmented reality, military training, from 
federally funded research at USC; the hepatitis B vaccine, from 
federally funded research at UCSF; and image sensory 
technology, which is in our cell phones, from federally funded 
research at CalTech. So I add that list to the list of those 
discoveries that you, Dr. Cunningham, have outlined.
    My question then is: As we recognize all of that, can you 
also talk a bit about the concern that many of us have that 
were it not for federally funded research, the research that 
would be conducted would be motivated by what is profitable and 
not necessarily what impacts the largest number of people? In 
particular, my concern is for cures that we need for rare 
diseases as an example, those diseases that may impact a few 
number of people, and so the benefit will be to a few number of 
people and, therefore, will not necessarily be capable of being 
marketed and purchased by a lot of people. What can you say 
about that concern? And I will use as examples of those kinds 
of diseases that also impact specific racial or ethnic groups, 
and that can be anything from lupus to sickle cell to Tay-
Sachs. What is your perspective on that?
    Dr. Cunningham. Thank you for asking that question. It is 
really important that the research that is funded by the 
Federal Government often has a long timeline to show a result. 
So that shorter timeline, which is really important to industry 
and to industry-funded studies is not going to be profitable, 
as you say, for these rare diseases or for diseases that are 
prevention-focused or really focused on a greater public good 
necessarily, but will not show an immediate return on 
investment. These are the types of long-term investments that 
we need to make at the Federal level. That is the kind of 
investment that Federal research has shown to be able to do to 
invest in things that may be curiosity-driven at this time but 
might lead to an end result, which is a cure for a rare 
disease.
    I like the example of the honeybees, which is a silly 
sounding science study that was done by NSF, where scientists 
were looking into how honeybees found their nectar in a hive 
and why that would be relevant, and that was funded many years 
ago. Later on, that went on to give the answers to how to do 
Web algorithms for the Internet. So the kind of basic science 
research that might be funded now might be what gives the cure 
for your rare disease in 15 or 20 years from now, and that is 
not an investment that anyone could know in the room up front 
would cure that disease and is in the greater public good to 
take care of looking into that curiosity to understand the 
basic science.
    Senator Harris. You mentioned return on investment. So 
there are a lot of experts that I have read who talk about 
every dollar invested in biomedical research funding, for every 
dollar the economy gains roughly $2. And it is even greater for 
certain projects. For example, the United States invested $3.8 
billion in the Human Genome Project, which resulted in nearly 
$1 trillion in economic growth, which if you do the math on 
that is a 178:1 return on investment. So these types of Federal 
R&D investments certainly do help support the economy and jobs. 
In California, 38,000 Californians have benefited from the 
Genome Project that I mentioned.
    Can you explain why the private sector might not be willing 
to put an investment in biomedical research on projects that 
the government has funded? The concern that we have is 
nationwide Federal funding of NIH alone supports almost 380,000 
jobs and generates about $65 billion in economic activity 
across the United States. I see my time is running short, and 
we have to take a vote. So perhaps we can talk about that in 
the continuing conversation. I will yield to my colleagues.
    Senator Paul. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, and thanks to all of you for 
being here and being a part of the dialogue on it.
    As we go through some of the research, I am not opposed to 
research, and I am grateful every time I pick up my cell phone 
or visit a doctor's office for research in the past. The 
question is: federally funded research, should the information 
be transparent and available to everyone else? How quickly does 
that get out? How does that get out? The diversity of the 
selection teams, if that ends up being the same teams selecting 
over and over again and directing funds, and then the national 
benefit of that. And when I get to the national benefit of it, 
as Senator Peters mentioned, there are times that I will look 
at some studies, as has already been mentioned, studies about 
people sneezing on a child's food and are they more or less 
likely to be able to take that. But I can go to other studies 
that I have had the opportunity to be able to look at. NSF 
funded a study on the connection between religion and politics 
and cemeteries in Iceland. NSF also did a study on 500-year-old 
fish bones to study social structures in Tanzania. There was a 
study done on senior dating habits, on how likely seniors are 
to date and what their preferences are in dating.
    Now, again, senior dating may be fascinating research, but 
I am not necessarily assured that it is federally necessary. 
Match.com may be very interested in that and lots of other 
folks may as a way to be able to partner up seniors, but is 
that a national priority?
    So the questions that I have circle around how we are doing 
selections of this: Who is doing the selection of the funding? 
What is fundamental research and what really should be applied 
research? Is the Federal Government really focusing in on 
fundamental research?
    My first question really deals with this issue of who is 
making the decision when these grants come? A quick comment on 
it, then I want to open this up.
    I have talked to researchers at universities that say, 
``For the exact same research, I write it one way to apply to 
NIH; I write it another way to try to get a grant from NSF. I 
really do not care where I get the funding from, but I write 
the grant in a way that they want me to write it, trying to 
figure out who is going to be able to give me the dollars for 
it. Then I will target my research based on whoever will give 
me the dollars for it.'' That to me is a red flag. I understand 
if you get an NIH grant, you have to tell NSF that you have it. 
But if you are applying for both simultaneously, they do not 
know what the other one is getting, and I have gone back to be 
able to verify that.
    Let us start with the basics. The decision of how a grant 
is done, these decisionmaking boards, is there diversity in the 
boards? Do those boards transition and change over? Or is it 
basically the same people doing approvals consistently? And 
then what follow up happens from there? So anybody can take 
that if they choose to.
    Mr. Nosek. Thank you, Senator Lankford, for the question. I 
cannot speak to the details of how reviews happen across the 
various agencies, except for having been myself on both sides 
of it, having been a reviewer of grants and having been a 
submitter of grants. In the context of that experience, 
agreeing to be a reviewer of a grant, the first step that I go 
through is to assess from the initial information that they 
provide whether I have the qualifications to review it at all. 
If I were to make a wild guess, I would to say if I were to 
look at the breadth of NSF-funded grants, probably 90 percent 
of them I would not feel like I had the competence to review 
myself. There is just too much information that is depth 
information that I do not have in insight for how it is to 
evaluate that.
    The second challenge, I think, of the points that you were 
mentioning relating to how the grants are characterized--and 
Senator Paul mentioned this as well--I think is a critical one, 
which is it is easy to see the title of a grant as indicating 
something absurd, like scientists wanted to study shrimp on a 
treadmill? What were they thinking in deciding that that was a 
reasonable research question. The challenge--and I think Dr. 
Cunningham was correct--is the translation challenge that 
researchers need to do better at, which is it starts with a 
theoretical question, an interest of principles. How is it that 
this particular thing works? I do not know this shrimp example, 
but I imagine, just guessing, that it was researchers 
interested in biomechanics. How is it that biomechanics work in 
some way? So they had to come up with how is it that we test 
it. How do we operationalize that theoretical question into 
something that is meaningful to test? It is the 
operationalization that is often very apparent and very easy to 
sort of misunderstand as something silly when it is actually 
testing something deeper. That deeper question, the theoretical 
question, I think researchers need to do a much better job of 
surfacing as the point of the research so that taxpayers can 
recognize what the value is of----
    Senator Lankford. All right. Let me make just a quick 
comment on this, because I would love to be able to work in a 
bipartisan way on this, because I think there is a lot of 
common agreement on it. Science that is paid for by the Federal 
tax dollars should not be then retained by individuals saying, 
``I am going to hang onto that.'' If it was done for the public 
good, it needs to be publicly available as that science. I 
think that should be a given. That is not always so at this 
point.
    There should be diverse selection teams. If it is the same 
team selecting the same type, they are going to select the same 
type of research year after year from the same universities 
year after year. If you are one of those universities that 
benefits from that, you will always want that to stay status 
quo. But I think it is not how we get diverse backgrounds on 
it, and I think we need to make sure it actually has national 
benefit and is fundamental research, not something that does 
not have national benefit. I think we can find agreement on 
that, and I would love to be able to finish that work.
    Senator Paul. A quick comment. There is a possibility these 
studies are not silly and we need better titles so they are not 
silly, or there is a possibility they are silly. Tasting wine 
and studying alcoholism. Silly. Sneezing on food, should we eat 
it? It is not the problem with the title or translating good 
research into a bad title. Maybe the research should not be 
done. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chair, and to our 
Ranking Member as well. And thank you, witnesses, for being 
here. I apologize because as soon as I get done asking 
questions, I think we are all going to bolt, and I apologize 
for that, but we have a vote.
    I will just make a quick comment as well. I still remember 
one of the early public health challenges I dealt with in 
public life was the onset of Triple E, which is a kind of 
mosquito-borne illness that is rare but happened to occur in my 
portion of my State of New Hampshire when I was in the State 
Senate. There was not any private sector interest in developing 
a vaccination for Triple E because it is so rare that the 
investment in doing it would not be paid back in any way given 
the rarity of the disease. So I watched constituents deeply 
debilitated by this disease and who lost their lives to this 
disease, in part because there was no economic incentive for 
developing the kind of treatment. So I think it is really 
important to remember the public purpose.
    I did to that point want to ask Dr. Cunningham a question 
based on your testimony. You discussed your personal 
experiences dealing with the heroin, fentanyl, and opioid 
crisis, an epidemic which is having a truly devastating impact 
on communities in New Hampshire and across the country. I would 
like to highlight the important connection you made in your 
testimony between addressing the epidemic and federally funded 
research.
    Another example comes once again from my home State of New 
Hampshire. In order to fight this epidemic, it is critical that 
we understand the current trends of the crisis across the 
United States. The National Drug Early Warning System is an 
important system that helps us monitor emerging drug trends to 
enable health experts, researchers, and concerned citizens 
across the country to respond quickly to potential outbreaks. 
This surveillance system is supported by grants from the 
National Institute on Drug Abuse (NIDA).
    Last year, the National Drug Early Warning System released 
a critical report based on research conducted by Dr. Lisa 
Marsch at Dartmouth, as well as New Hampshire public health 
experts at High Intensity Drug Trafficking Area (HIDTA), and 
the State Office of the Chief Medical Examiner. This report 
brings us closer to understanding the patterns, causes, and 
effect of heroin, fentanyl, and opioid misuse in our 
communities, and it is my understanding that NIH and the 
National Institute on Drug Abuse are expanding their funding 
for additional research in New Hampshire to continue to help 
improve our response to this epidemic.
    Dr. Cunningham, do you agree that this kind of Federal 
funding is critical to help public health researchers such as 
yourself determine how we can best respond to the ongoing 
substance misuse crisis?
    Dr. Cunningham. Thank you for the question. The Federal 
research is completely critical. We have a horrific epidemic on 
our hands with opioid and heroin overdose. Before we throw and 
waste Federal dollars at programs that may or may not work, we 
need to understand which programs are actually going to make a 
difference and decrease and save lives. We will do that by 
rigorous behavioral research being done by NIDA and the CDC and 
National Institute on Alcohol Abuse and Alcoholism (NIAAA), 
that are well designed, well reviewed by our peers, with very 
diverse panels of people from all across the country to try to 
understand how those are going to be the best solutions so that 
eventually, when we then go to implement the solutions into 
local communities with local values, we know that they will 
work and we will know that those solutions that we are throwing 
out there will not actually do harm because they have not been 
rigorously tested by scientists. Thank you.
    Senator Hassan. Well, thank you very much. In the interest 
of getting us to our vote, I will conclude. Thanks. Thank you 
again, witnesses.
    Senator Paul. Thank you.
    Senator Peters, do you have a statement that you would like 
to make?
    Senator Peters. I think we are ready to vote.
    Senator Paul. OK. Well, thanks, everybody, for appearing. I 
apologize a little bit for the rushed schedule, but we never 
know when we are going to vote until about 20 minutes before we 
vote, and we have a series of votes coming up.
    I think the testimony was good. From my point of view, I 
would just say that we do have a problem, and we need to admit 
we have a problem. It is not that we do not have silly research 
going on. We do have silly research going on. It is not just 
the title, and cleverly changing the title to obscure the 
silliness of the project will not make it any less silly. What 
we need to do is have less silly research so we take our 
precious dollars that we have and they are spent more wisely.
    I think if we look at the way they are approved, I think we 
ought to consider that you should not get to pick the people 
approving your money. That makes obvious sense to me. I cannot 
imagine how anybody would think that the person applying for a 
grant should get to pick the people on the committee or have 
any influence on the people on the committee.
    I also personally think that there should be people on the 
committee who have nothing to do with that subject, who are 
well intentioned, people educated enough to understand a 
scientific project being explained to them, but that have no 
dog in that fight. They are not going to have to turn around 
next week and ask for approval from the same people in these 
committees. It is a circle back and forth, and, I think really 
we need some people independent. I would put a taxpayer 
advocate on the committees. I would put a scientist who is not 
involved with that research on the committee. So there are a 
lot of things we could do.
    But the bottom line is what William Proxmire pointed out in 
the 1970s, the Golden Fleece Awards for this crazy research, 
sneezing on food, senior dating, gambling in Uganda, just 
bizarre stuff that everybody agrees that government should not 
fund. Let us not say that it is not silly. It is silly. Let us 
quit doing it and let us fix it, because I tell you, the danger 
is if you do not fix it and you are part of the receiving folks 
in this branch of government, this fourth branch of government, 
there is going to be a day on which people are going to get 
made and there is not going to be any more money. People are 
going to get mad and finally say enough is enough.
    So if you like the gravy train, I would recommend that we 
fix it so we are not funding really crummy research. I think it 
is still out there. It may be the exception rather than the 
rule, but there is enough of it that every year we come up with 
dozens of them. I would suggest that the scientific community 
needs to get together and admit we have a problem and fix it.
    Thank you all.
    [Whereupon, at 3:19 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------       
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
